Supreme Court, U.S,
FILED

AUG 0 3 2G21
OFFICE OF THE CLERK

No

21-5743 ORIGINAL

IN THE UNITED STATES SUPREME COURT OF THE UNITED STATES
RAFAEL FERNANDEZ GARCIA,
Petitioner

vs
UNITED STATES OF AMERICA,
Respondent

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

PETITION FOR CERTIORARI
Rafael Fernandez Garcia
Register Number 91169-004
FCI Coleman Medium
P.O. Box 1032
Coleman, Florida 33521
Pro se Petitioner
RELATED CASE
UNITED STATES OF AMERICA v. THOMAS BRYANT, Jr. ,
996 F.3d 1243 (lltb Cir. 2021)
Petition For Certiorari Filed: 20-1732

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW
LIST OF PARTIES IN COURT BELOW
CORPORATE DISCLOSURE STATEMENT
TABLE OF AUTHORITIES CITED
CITATIONS OF OPINIONS AND ORDERS IN CASE
JURISDICTIONAL STATEMENT
CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED
STATEMENT OF THE CASE
i. COURSE OF PROCEEDINGS IN THE
SECTION 3582(c)(l)(A)(i) CASE
NOW BEFORE THIS COURT

PAGE #

I
2
3
4
5
6

7

II. RELEVANT FACTS CONCERNING THE
UNDERLYING CONVICTION FOR HOBBS
ACT' ROBBERY AND CONSPIRACY WITH
INTENT TO DISTRIBUTE 5 KILOGRAMS
OR MORE OF COCAINE

8

III. EXISTENCE OF JURISDICTION BELOW

10

IV. THE COURT OF APPEALS HAS DECIDED
A FEDERAL QUESTION IN A WAY THAT
CONFLICT’S WITH THE APPLICABLE
DECISIONS OF ITS SISTER CIRCUITS

11

ARGUMENT FOR ALLOWANCE OF WRIT
I. THE COURT OF APPEALS ERRED IN
AFFIRMING THE DISTRICT COURT'S
DENIAL OF COMPASSIONATE RELEASE
BY APPLYING § 1B1.13 AS AN
APPLICABLE POLICY STATEMENT

14

II. THE COURT OF APPEALS ERRED BY
DETERMINING THAT § 1B1.13 WAS
AN APPLICABLE POLICY STATEMENT
TO DEFENDANT-FILED MOTIONS

: 16

III. THE COURT OF APPEALS ERRED IN
AFFIRMING BY FINDING THAT THE
PETITIONER COULD NOT PRESENT ANY
EXTRAORDINARY AND COMPELLING REASONS
BECAUSE § 1B1.13 DID NOT COVER COVID-19
RELATED AILMENTS
i

19

PAGE #
IV. THE QUESTIONS RAISED IN THIS
PETITION ARE IMPORTANT AND
UNRESOLVED

22

CONCLUSION

25

CERTIFICATE OF COMPLIANCE AND SERVICE

26

APPENDIX

27

ORDERS AND JUDGMENTS OF COURTS BELOW
1. FINAL JUDGMENT AND ORDER DENYING MOTION
TO VACATE (July 16, 2012)

8

2. ORDER DENYING COMPASSIONATE RELEASE
(July 15, 2020)

7

3. ORDER AFFIRMING DISTRICT COURT DENIAL
(July 19, 2021)

7

4. MOTION FOR REDUCTION OF SENTENCE
(July 14, 2020)

7

TABEE~0F''AUTHORITIES CITED
Kingdomware Techs, Inc. v. United States, 136 S. Ct. 1969, 193
L. ED. 2d 334 (2016)
United States v. Aruda, No. 20-10245 (9th Cir. April 8, 2021)
United States v. Brooker, 976 F.3d 228 (2d Cir. 2020)
United States v. Bryant, 996 F.3d 1243 (11th Cir. 2021)
United States v. Cogdell, 154 Fed. Appx. 162 (11th Cir. 2005)
United States v. Garcia, 445 Fed. Appx. 281 (11th Cir. 2011)
United States v. Gunn, 980 F.3d 1178 (7th Cir. 2020)
United States v. Jones, 980 F.3d 1098 (6th Cit'v, 2020)
United States v. Long, 997 F.3d 342 (D.C. Cir. 2021)
United States v. Maumau, No. 20-4056 (10th Cir. April 1, 2021)
United States v. McCoy, 981 F.3d 271 (4th Cir. 2020)
United States v. Shkambi, No. 20-40543 (5th Cir. April 7, 2021)
United States v. Tomes, 990 F.3d 500 (6th Cir. 2021)
CONSTITUTION, STATUTES, REGULATIONS AND RULES
5th Amendment US Constitution
ii

18
18
18
18
18
21
21
28
28

U.S.C.
U.S.C.
U.S.C.
U.S.C.
U.S.C.
U.S.C.
U3S.C.
U.S.C.
U.S.C.

§
§
§
§
§
§
§
§
§

924(c)
924(o)
1951
3553(a)
3582(c)(1)(A)
841
846
994(t)
1254(1)

Federal Bureau of Prisons Program Statement 5050.50
United States Sentencing Guidelines Application Note § 1B1.13
TEXTS, TREATISES, AND LAW REVIEWS
Shon Hopwood, Second Looks & second Chances, 41 Cardozo L. Rev.
83, 105-06 (2019)
William W. Berry III, Extraordinary and Compelling: Re-Examination of the Justifications for Compassionate Release, 68 MD. L.
Rev. 850, 868 (2009)

iii

i

QUESTIONS PRESENTED FOR REVIEW
1. Is it appropriate for a court to apply old policy
statements, specifically reserved for agencies to follow, to new
statutory constructions that eliminate agency primacy?
2. Is the decision reached in United States v. Bryant, 996
F.3d 1243 (11th Cir. 2021) accurately decided, where, if allowed
to stand, it would be the outlier of the majority of circuits?

1

LIST OF PARTIES IN COURT BELOW
The caption set out above contains the names of all
the parties.
/'

2

j

CORPORATE DISCLOSURE STATEMENT
This case does not involve any corporations

3

CITATIONS OF OPINIONS AND ORDERS IN CASE
The original conviction of Petitioner in the United States
District Court for the Southern District of Florida was not re­
ported, but is set forth in the Appendix. See Appx at 1 Page 2.
The original conviction of Petitioner was appealed to the
United States Court of Appeals for the Eleventh Circuit, which
was affirmed in all respects on October 27, 2011, and is report­
ed at United States v. Garcia, 445 Fed. Appx. 281 (11th Cir.
2011). A Petition for Certiorari was not filed. See id.
The decision of the United States District Court for the
Southern District of Florida on Petitioner's Section 2255 mo­
tion occurred July 23, 2012. On February 5, 2013 the Eleventh
Circuit denied Petitioner a Certificate of Appealability, and
on September 26, 2014, the Eleventh Circuit affirmed the denial
of a second Section 2255 filed. Garcia v. United States, 2014
WL 4783717 (11th Cir. 2014). See Appx at 1 Page 1.

4

JURISDICTIONAL STATEMENT
The judgment of the United States Court of Appeals for the
Eleventh Circuit was entered on July 19, 2021. Rehearing was1 not
sought. The jurisdiction of this Court is invoked under 28 U.S.C.
§ 1254(1).

"i

5

CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED
1. The Fifth Amendment, United States Constitution, pro­
vides :
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when
in actual service in time of War or public danger;
nor shall any person be subject for the same offence
to be twice put in jeopardy of life or limb; nor
shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall private
property be taken for public use, without just compen­
sation.
2. The Statute under which Petitioner sought post convic­
tion relief was 18 U.S.C. § 3582(c)(l)(A)(i), which provides:
(c) The court may not modify a term of imprisonment
once it has been imposed except that, (1) in any case,
(A) the court, upon motion of the Director of the
Bureau of Prisons, or upon motion of the defendant after
the defendant has fully exhausted all administrative
rights to appeal a failure of the Bureau of Prisons to
bring a motion on the defendant's behalf or the lapse of
30 days from the receipt of such a request by the warden
of the defendant's facility, whichever is earlier, may
reduce the term of imprisonment (and impose a term of
probation or supervised release with or without condi­
tions that does not exceed the unserved portion of the
original term of imprisonment), after considering the
factors set forth in Section 3553(a) to the extent that
they are applicable, if it finds that, (i) extraordinary
and compelling reasons warrant such a reduction.

6

STATEMENT OF THE CASE
I. COURSE OF PROCEEDINGS IN THE SECTION
3582(c)(l)(A)(i) CASE NOW BEFORE THIS COURT,
The facts necessary to place in their setting the questions
now raised can be briefly stated as follows:
On July 6, 2020, Petitioner filed a pro se Motion For Reduc­
tion of Sentence in the United States District Court for the
Southern District of Florida, pursuant to 18 U.S.C. 5 3582. See
Appx at 4.
On July 15, 2020, the district court denied the above motion
for a lack of jurisdiction after considering "18 U.S.C. 53553(a)
and the applicable Sentencing Guidelines Policy Statements."
See Appx at 2.
On July 30, 2020, a timely Notice of Appeal was docketed
and Petitioner took his cause to the Eleventh Circuit Court of
Appeals. See Appx at
On July 19, 2021, the Eleventh Circuit Court of Appeals
affirmed the district court's denial of Petitioner's request for
Compassionate Release/Sentence Reduction. See Appx at 3.
In light of the above, the Petition For Certiorari below is
necessary.

7

/

II. RELEVANT FACTS CONCERNING THE
UNDERLYING CONVICTION FOR HOBBS
ACT ROBBERY AND CONSPIRACY WITH
INTENT TO DISTRIBUTE 5 KILOGRAMS
OR MORE OF COCAINE
The relevant facts are contained in the district court's
denial of Petitioner's Motion To Vacate pursuant to 28 U.S.C.
§ 2255, and those facts are quoted as follows:
On September 10, 2009, Petitioner arrested in the Southern
District of Florida based upon a Criminal Complaint following
a reverse sting operation.
On September 22, 2009, Petitioner was indicted for Hobbs
Act Robbery, Conspiracy to Possess with Intent to Distribute
Five Kilograms or More of Cocaine, Attmpted Possession with In­
tent to Distribute Five Kilograms or More of Cocaine, Conspiracy
to Use a Firearm During a Crime of Violence or Drug Trafficking
Crime, and Use of a Firearm During the Commission of a Crime of
Violence or Drug Trafficking Crime, and Use of a Firearm During
the Commission of a Crime of Violence or Drug Trafficking Crime.
See Appx at 1.
On October 28, 2009, a continuance was granted to the defen­
se, and trial was reset to January 25, 2010. See id.
On January 5, 2010, a Superceding Indictment was returned.
id.
On January 22, 2010, another continuance was granted and
trial was reset to February 22, 2010. However, on February 2,
2010, the defense was granted another continuance and trial was

8

reset to March 1, 2010, and at a February 26, 2010 calendar call,
the defense indicated a readiness for trial at which point Peti­
tioner’s trial was severed from his brother’s case. id.
On March 1, 2010, trial was commenced, id.
On March 12, 2010, Petitioner was convicted on Four of Five
Counts, but acquitted of Use of a Firearm During a Crime of Vio­
lence or Drug Trafficking Crime, id♦
On May 21, 2010, Petitioner was sentenced to 292 months in
prison, id.
On October 27, 2011, Petitioner’s convictions were affirmed
by the Eleventh Circuit Court of Appeals, id_.

N

Petitioner did not Petition For Certiorari.
On April 5, 2012, Petitioner filed a timely Motion To Va­
cate and Memorandum; the Government responded on April 30, 2012;
and Petitioner replied on May 29, 2012, regarding multiple claims
challenging the effectiveness of counsel regarding plea offers;
a juror challenge; and other issues related to evidence adduced
at trial and witness testimony, id.
\

On July 16, 2012, the district court denied the Motion To
Vacate in all respects and dismissed the action, id.
Petitioner has since sought relief pursuant to United States
Sentencing Guidelines Amendment 782, but also denied by the dis­
trict court as recent as March 30, 2018.

9

III. EXISTENCE OF JURISDICTION BELOW
Petitioner was convicted in the District Court for the
Southern District of Florida for four of five counts under 18
U.S.C. § 924( o); 21 U.S.C. §§ 841, 846; and 18 U.S.C. §1951.
Petitioner has extensive post-conviction filings, but of
relevance here, is the fact that the Section 3582(c)(1)(A)(i)
motion at question here was appropriately filed in the above
court, and duly appealed to the Eleventh Circuit. See Appx at
3 Page 2.

10

IV. THE COURT OF APPEALS HAS DECIDED
A FEDERAL QUESTION IN A WAY THAT
CONFLICT'S WITH THE APPLICABLE
DECISIONS OF ITS SISTER CIRCUITS
On May 7, 2021, the United States Court of Appeals for the
Eleventh Circuit decided United States v. Bryant, 996 F.3d 1243
\

(11th Cir. 2021), which took a position diametrically opposed to
at least seven other courts of appeals that have dealt

with the

applicability of United States Sentencing Guidelines (U.S.S.G.)
Application Note §1B1.13 to defendant-filed motions seeking sen­
tence reductions under Section 3582(c)(1)(A), after following
the statute's exhaustion requirement.^"
On December 21, 2018, the First Step Act (FSA) was signed
2
into law by President Donald J. Trump.
One of its provisions sought to "increasef) the Transparency
and Use of Compassionate Release", which is the bone of conten­
tion here. id.
When reaching the decision of whether to apply § 1B1.13 as
an exclusive ,policy statement

when disposing of defendant-filed

motions, all of the appeals courts focused on Congress' intent,
first; second, the focus turned to the plain text of the statute,
which clearly states: "upon motion of the Director of the Bureau
1 Courts to decide U.S.S.G. § 1B1.13 is not applicable to defend­
ant-filed motions: United States v. Brooker, 976 F.3d 228 (2d
Cir. 2020); United States v. McCoy, 981 F.3d 271 (4th Cir. 2020);
United States v. Shkambi, No. 20-40543 (5th Cir. April 7, 2021);
United States v. Jones, 980 F.3d 1098 (6th Cir. 2020); United
States v. Gunn, 980 F.3d 1178 (7th Cir. 2020); United States v.
Aruda, No. 20-10245 (9th Cir. April 8, 2021); United States v.
Maumau, No. 20-4056 (10th Cir. April 1, 2021).
'
2 Pub. L. No. 115-391, § 603(b), 132 Stat. 5194, 5239 (2018).
11

of Prisons," OR "upon motion of tbe defendant after.

• •

" 18

18 U.S.C. § 3582(c)(1)(A)(emphasis added)(quotations omitted).
When a defendant initiates the process for himself, it be­
gins at the institutional level where he files an Inmate Request
To Staff pursuant to BOP Program Statement 5050.50, which codi­
fies Section 3582 and 4205(g). See Appx at 4 Page 8 of 23.
The form provided by BOP officials in many ways tracks the
structure of Application Note §1B1.13, where four reasons label­
ed (A)-(D) identify justifiable reasons for a grant of compass­
ionate release bytthe BOP, but the "Catchall" provision of 1(D),
or "Other-Extraordinary and Compelling Circumstance" do not take
into account what a defendant may submit as his own reasons jus­
tifying relief outside of what the agency may itself point to as
its own "line in the sand", which also happens to be the same as
before when the grant of compassionate release initiated by the
BOP came at a whopping rate of 0.01% annually throughout tbe
1990's.3
The Eleventh Circuit's position in Bryant is that "Because
we can apply both the amended Section 3582(c)(1)(A) and Applica­
tion Note 1(D), we must apply both." id.
However, the Petitioner here will posit, just because you
can do something, it does not suddenly become right in the absen­
ce of explicit license.
In reaching its decision to affirm, the court below decided
3 See Shon Hopwood,Second Looks & Second Chances, 41 Cardozo L.
Rev. 83, 105-06 (2019); William W. Berry III, Extraordinary and
Compelling: Re-Examination of the Justifications for Compassion­
ate Release, 68 MD. L. Rev. 850, 868 (2009).
12

that these settled principles were not to be applied to the case
at bar because:
1. Section 1B1.13 is an applicable policy statement;
2. Application Note 1(D) is not inconsistent with the
procedural changes made to Section 3582(c)(1)(A);
and
3. Without the BOP courts would effectively have
carte blanche to grant or deny motions.
The problem with the Eleventh Circuit's interpretation is
simple: by leaving this process up to the BOP to develop those
reasons, essentially presupposes the need to petition courts in
the first instance, because the BOP will always be right in its
assessment, and defendants are not capable of identifying their
own needs, whether they be medically related, or sentence-based
(something the BOP never delves into as a policy), which elimi­
nates any force in the position taken by the court below.
We respectfully urge that all aspects of this decision are
erroneous and at variance with several other courts of appeals
as explained in the argument below.

13

ARGUMENT FOR ALLOWANCE OF WRIT
I. THE COURT OF APPEALS ERRED IN
AFFIRMING THE DISTRICT COURT'S
DENIAL OF COMPASSIONATE RELEASE
BY APPLYING §1B1.13 AS AN
APPLICABLE POLICY STATEMENT
To be clear, the district court's order denying Petitioner
Compassionate Release was very brief—2 pages. It alleged that
it lacked jurisdiction to consider the request, which the Eleven­
th Circuit decided meant that it could not find extraordinary and
compelling reasons to justify relief. See Appx at 2.
In United States v. Long. 997 F.3d 342 (D.C. 2021), the
court below examined the Eleventh Circuit's reasoning in depth:
Recently, a divided decision of the Eleventh Circuit
ruled that U.S.S.G. §1B1.13 is applicable to defen­
dant motions for compassionate release. Bryant, 2021
U.S. App. LEXIS 13663, 2021 WL 1827158, at *6. The
court reasoned that the pre-First Step Act policy
statement is "capable of being applied" to those . .
motions, and so it must be "applicable" within the
meaning of 18 U.S.C. § 3582(c)(1)(A). 2021 U.S. App.
LEXIS 13663 (WL] at *6-7. But that opinion's re­
liance on dictionary definitions of "applicable" miss­
es the forest for a tree. The decision ignores all
of the other words in Section 1B1.13 that already
state in plain and clear terms when the policy
statement applies: "Upon motion of the Director of
the Bureau of Prisons[.]" U.S.S.G. SlBl.13. As
Judge Martin explained, the opinion's "dictionarybased theory about when a policy statement may be
'applicable' flies in the face of the statement's
plain text that tells us when it is actually 'appli­
cable.'" Bryant, 2021 U.S. App. LEXIS 13663, 2021 WL
1827158, at *20 (Martin, J., dissenting). In other
words, this policy statement "is capable of being
applied" to Long's motion, 2021 U.S. App. LEXIS
13663, [WL] at *6, only if we take an eraser to the
words that say the opposite.
But the dissent in Bryant is even more illustrative of how
14

the court below, to put it simply, got it wrong:
"The First Step Act was signed into law on
December 21, 2018. The last meeting of the
U.S. Sentencing Commission to convene with
a quorum was held on December 13, 2018.
This means the Commission has not met with
a quorum since the enactment of the First
Step Act. During the entire life of the
First Step Act, the Commission has there­
fore been without authority to make revis­
ion to the U.S. sentencing Guidelines, the
commentary to those guidelines, or the po­
licy statements related to those guideli nes
to effectuate the First Step Act. See
Bryant, 996 F.3d at fn. 1. (Martin, J.,
dissenting).
The jurisdictional question here is premised on whether
Application Note § 1B1.13 is, in fact, applicable. And the only
reason that it is a question is because the Eleventh Circuit
made it so. The other judicial circuits to have decided the
question presented here have made it abundantly clear, that the
words 1 Upon the motion of the Director of the Bureau of Prisons"
mean exactly that: his motion. Not that of the defendant, id.
It is for these reasons that the writ should be allowed

here.

15

II. THE COURT OF APPEALS ERRED BY
DETERMINING THAT §1B1.13 WAS
AN APPLICABLE POLICY STATEMENT
TO DEFENDANT-FILED MOTIONS
Application Note 1(D) states: "Other Reasons.—As deter­
mined by the Director of the (BOP), there exists in the defen­
dant's case an extraordinary and compelling reason other than,
or in combination with the reasons described in subdivisions (A)
(C)."
From the Eleventh Circuit's perspective, Application Note
1(D) presents no challenge to a court attempting to follow the
plain text of its instruction simply because it can be applied.
But the problem lies inherently in the text, becuase the "other
reasons" are left to be determined by the Director, which clearly
obviates anything a defendant may propound as extraordinary and
compelling for himself, and naturally preempt his ability to
present his own reasons for relief. A right bestowed upon him
by statutory construction because the Director has failed him in
the past.
Therefore, resolution and argument are circular, in that
the beginning is in the end and vice versa: If defendants are to
once again be expected to rely on the BOP, either implicitly or
through old policy statements, then Congress' intent smiled upon
everyone without any teeth. Must a defendant rely on what was
meant for the Director at a time when he himself wouldn't rely
on it to release incoherently terminal prisoners? See, e. g. , U. S .
Dep t of Justice, Office of the Inspector General, Evaluation
16

and Inspectors Division, The Federal Bureau of Prisons' Compas­
sionate Release Program; (April 2013)("[W]e found that the ex­
isting BOP compassionate release program has been poorly managed and implemented inconsistently, likely resulting in eligible
inmates not being considered for release and in terminally ill
inmates dying before their requests were decided.").^
In Petitioner's case, the court below conflated his prison
application with the application note, thus boxing him into a
place that does not exist in reality.
The critique of Bryant in Long echos the reasons why cer­
tiorari is so important in the case at bar, as well as Mr. Bryant
himself;
"Courts have no license under the First Step Act
to perform 'quick judicial surgery on [U.S.S.G.]
§1B1.13,***editing out language' that expressly
confines its operation to motions filed by the
Bureau of Prisons." McCoy, 981 F.3d at 282 (4th
Cir. 2020).
........
..
This Court itself is always embroiled in the painstaking
process of what did Congress intend, and then how to apply that
charge without reading what it wants to, but instead what is
written.
To round out this point, the Long court also found:
"At bottom, for a policy statement to be 'appli­
cable', it must, at a minimum, take account of
the relevant legislation and the Congressional
policy that it embodies. Section 1B1.13 does
not do that. And so the problem with the Elev­
enth Circuit's approach is that it asked the
4 See https://oig.justice.gov/reports/2013/el306.pdf
17

wrong question. The issue here is not the
meaning of 'applicable', but rather whether
the pre-First Step Act policy statement i_s
applicable. It plainly is not" id.
The Eleventh Circuit also made another mistake when it
reached its conclusion, despite vehement dissent, that SlBl.13
did.apply to defendant-filed motions when it cited other unpub­
lished decisions, which sided with its view.
But as the panel in United States v. Tomes, 990 F.3d 500,
503 n.l (6th Cir. 2021) found, "That is not to say a district
court cannot permissively consider those four categories as
part of its discretionary inquiry into whether a case presents
extraordinary and compelling reasons for release...[B]ecause
district courts are free to define 'extraordinary and compell­
ing' on their own initiative, they may look to §1B1.13 as rele­
vant, even if no longer binding." (internal quotation marks and
citation omitted).
Therefore, finding that lower courts are bound to the text
of § 1B1.13, is once again a stricture that Congress did not in­
tend.

18

III. THE COURT OF APPEALS ERRED IN
AFFIRMING BY FINDING THAT THE
PETITIONER COULD NOT PRESENT ANY
EXTRAORDINARY AND COMPELLING REASONS
BECAUSE §1B1.13 DID NOT COVER
COVID-19 RELATED AILMENTS
In affirming the district court's denial of Petitioner's
request for compassionate release, the Eleventh Circuit somehow
found that "Garcia made clear on his motion form that he was
applying for compassionate release under the catchall provision
of § 1B1.13 cmt. n.l, which is subpart (D). But that provision
specifically requires the director of the BOP—not the district
court—to determine "what reasons not expressly listed in (§]
1B1.13 can be extraordinary and compelling." Bryant, 996 F.3d at
1263; see also § 1B1.13 cmt. n.l(D)."
This finding is problematic in many ways.
First, it still leaves the BOP as the primary force in
whether any petitioner for compassionate release will receive a
grant purely based on the structure of a form that the BOP print­
ed internally for inmates to follow without any supervisory gui­
dance. As if Congress intended for the BOP to remain instrumental
in an inmate/defendant decision-making process.
Second, it was extremely wrong for the Eleventh Circuit to
assume that agency requirements comport with statutory allowan­
ces made after said agency created its requirement.
Translation: the form in question existed pre-First Step
Act under the BOP Program Statement 5050.49. The only difference
is that post-FSA, the form was modified to include the final'
box labeled "Other.-Extraordinary and Compelling Circumstance."
19

This tends to lend credence to the idea that at least the
BOP realized post-FSA, adjustments needed to be made to a form
used to determine an inmate/defendant's exhaustion of his ad­
ministrative remedies. See Appx at 4 Page 8 of 23.
The Eleventh Circuit assumed that the final box corresponded
to § 1B1.13 cmt. n.l(D), without any express direction to do so.
Then it went further and expected petitioner's to fit within
those categories, and if they could not—tough. See, e.g. ,
First Step Act, Pub. L. 115-391, 132 Stat. 5194, 5239 (titling
the subsection amending § 3582, "increasing the Transparency and
Use of Compassionate Release".) 164 Cong. Rec. S7314-02, 2018 WL
6350790 (Dec. 5, 2018)(statement by Senator Cardin, cosponsor
of the First Step Act, noting that its purpose was to "expand(s]
compassionate release" and "expeditef] compassionate release app­
lications") •
Again, this is problematic for many reasons. After the
court below found a correspondence between the form and 1(D), it
ignored the form's directions: "Briefly describe your medical
condition or extraordinary and compelling circumstance." And once
the inmate does this, he can then provide "Additional Comments:"
Therefore, if this whole endeavor is based on semantics and
phraseology under new statutory schemes, then the door is open­
ed for the petitioner to describe his own reasons without the
BOP's help. It is left to the BOP to then decide if those circum­
stances are, in fact, extraordinary and compelling.
In all honesty, the only limitation may be found in 28
U.S.C. §994(t), which finds "rehabilitation of the defendant is
20

not, by itself, an extraordinary and compelling reason for pur­
poses of this policy statement." See also, 09-cr-60245-WPD (Doc.
503 at page 14 of 23 (Clarification on Reduction in Sentence(RIS)
Requests).^
Therefore, at least the BOP itself acknowledges that an in­
mate in its custody may have other reasons that fall outside the
scope of its ability, but still allow an avenue to proceed throu­
gh the exhaustion process.
It is in this light that errors of the court below are most
glaring. Because it also found that "(:]despite the COVID-19 pan­
demic, the director of the BOP has

not determined that medical

conditions that increase an inmate's risk of contracting coronavirus are extraordinary and compelling reasons for compassionate
release." Sd. but

the CARES Act did, and there are multiple dis­

trict courts that have also found the same, while in many cases
coordinating with the Attorney General's Office to find eligible
inmates to place in home confinement.
This is a significant distinction that was ignored by the
court below in favor of a logic that may not have been well-rea­
soned when viewed as a whole in contrast to the many courts that
have found otherwise.

5 Requests for a Reduction in Sentence will be denied at the in­
stitutional level should the request fail to demonstrate extra­
ordinary or compelling circumstances which would warrant a reduc­
tion in sentence under BOP guidelines, (emphasis in original).
21

IV. THE QUESTIONS RAISED IN THIS
PETITION ARE IMPORTANT AND
UNRESOLVED
The court below has taken a position contrary to its sister
circuits, which is clearly against the plain text of the statute
and Congress' intent to broaden the use of compassionate release
after the BOP's failure to utilize the power itself. Therefore,
a defendant has now been allowed to exercise that power himself
if he can demonstrate extraordinary and compelling reasons to
the district court after exhaustion of his administrative reme­
dies, or the lapse of 30 days.
In Long, the D.C. Circuit captured the Eleventh Circuit's
approach in this way:
"The Eleventh Circuit backhanded the policy
statement's express text as "prefatory" language
that just "orients the reader by paraphrasing
the statute as it existed at the time the policy
statement was enacted." Bryant, 2021 U.S. App.
LEXIS 13663, 2021 WL 1827158, at *11. Not so.
The opening language is not mere prologue. Cf.,
e.g., Kingdomware Techs, Inc. v. United States,
136 S. CtT 1969, 1977-1978, 195 L. Ed. 2d 334
(2016). Quite the opposite, the policy state­
ment's first words—"Upon motion of the Director
of the Bureau of Prisons under 18 U.S.C. §3582
(c)(1)(A)"—set out a rigid and indespensable
condition of release: that the Bureau of Prisons
itself agrees that relief is warranted. In that
way, the beginning of the policy statement puts
into effect Congress's (now superseded) command
that motions for compassionate release may be
filed only by the Bureau of Prisons. See United
States v. Cogdell, 154 F. App'x 162, 164 (11th
Cir. 2005)(defendant did not qualify for downward
adjustment under U.S.S.G. §3El.l(b) because such
an adjustment could only be granted "upon motion
of the government" and the government did not so
move). To dismiss these words as inert preface is
22

to ignore a direct textual instruction and central
statutory feature of the compassionate release
scheme prior to the First Step Act."
In United States v. Maumau, No. 20-4056 (10th Cir. 2021),
that court based its decision on "an individualized review of all
the circumstances of Maumau's case." Maj. Op. at 29.
Defendant Kepa Maumau found himself in a situation where
if

the mandatory stacking provision of 18 U.S.C. § 924(c) saddled
him with 57 years in prison. However, his post-sentencing con­
duct, the fact that if he were sentenced today he would not re­
ceive such a Draconian sentence, and other Section 3553(a) fac­
tors that saw similarly situated defendants (especially on his
own case) with lesser sentences; the district court found com­
passion and released a young man to hopefully demonstrate bis
worth after serving ten years in prison and the

Tenth Circuit

affirmed by citing many of its sister circuits. In Bryant, the
Eleventh Circuit countered, and therefore,; this Petition For
Certiorari is warranted to bring all circuits in line with one
another.
Finally, should this petition be granted, this Court may
find that it is imperative to answer the above questions, be­
cause ;
1. If §1B1.13 is an applicable policy statement
to defendant-filed motions, then the relevance
of the FSA revisions may be viewed with desue­
tude .
2. This.,petition presents a question of importance
to examine a novel area of law that appears to
perplex the lower courts in the absence of
guidance.
23

Without a quorum the Sentencing Commission has not updated
its list of what constitutes extraordinary and compelling reasons
to justify relief. However, the courts below, except for a select
few, have navigated the course well. See e.g., Shon Hopwood, Sec­
ond Looks & Second Chances, 41 Cardozo L. Rev. 83, 110-111 (2019)
(arguing Congress did not make § 924(c) sentence-stacking retro­
active because it did not want to make all inmates "categorical­
ly" eligible for sentencing relief, but Congress meant for relief
from Draconian sentences to apply "individually").

24

CONCLUSION
The Petitioner respectfully submits the foregoing brief in
support of his Petition For Certiorari in the hope that the
judgment below be reversed, because a statute should always be
read wher its plain text has meaning, without embellishment, or
extraneous requirements read into it.

This Petition For a Writ of Certiorari should, therefore,
be granted.

J 10?!

t>

Dated:

Respectfully Submitted,

£

Rafael Fernandez Garcia
Pro se
Register Number 91169-004
FCI Coleman-Medium
P.0. Box 1032
Coleman, Florida 33521

25

